   December 16, 2002




Supply Inventory
Management

Property Accountability at Research,
Development, Test, and Evaluation
Installations
(D-2003-036)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DPAS                  Defense Property Accountability System
RDT&E                 Research, Development, Test, and Evaluation
          Office of the Inspector General of the Department of Defense
Report No. D-2003-036                                                 December 16, 2002
   (Project No. D2002LD-0015)

             Property Accountability at Research, Development,
                     Test, and Evaluation Installations

                                Executive Summary

Who Should Read This Report and Why? Logistics personnel having a responsibility
for property accountability should read this report. This report evaluates the Military
Departments’ improvement in maintaining property accountability over personal property
at research, development, test, and evaluation installations.

Background. Personal property at research, development, test, and evaluation
installations includes military equipment and most other types of property, except for real
property, consumable items, component parts of a higher assembly, and items that lose
their individual identity through use. We previously reported that the Military
Departments improperly stocked uncataloged material for research, development, test,
and evaluation work. This report includes an assessment of the actions taken by the
Military Departments to implement the recommendations in that report, Inspector
General of the Department of Defense Report No. 97-183, “Uncataloged Material at
Research, Development, Test, and Evaluation Installations,” June 30, 1997. As of
January 9, 2002, there were at least 67 military installations performing research,
development, test, and evaluation work.

Results. The Military Departments improved procedures and controls for maintaining
property accountability at six research, development, test, and evaluation installations.
We visited two research, development, test, and evaluation installations in each of the
Military Departments and--based on our review of new regulatory guidance, in-house
assessments and inventories, a judgmental sample of items, and work area environments
at those installations--concluded that personal property was properly maintained on
accountability records with minor exceptions, was located in safeguarded, active work
areas, and was being used or was marked for disposal. For details of the results, see the
Finding section of this report.

Management Comments. We provided a draft of this report on November 6, 2002. No
written response was required, and none was received. Therefore, we are publishing this
report in final form.
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     2

Finding
     Property Accountability                  3

Appendixes
     A. Scope and Methodology                  9
          Management Control Program Review   10
     B. Prior Coverage                        12
     C. Report Distribution                   13
Background
    Accountability Guidance. Within DoD, property accountability policies,
    procedures, and practices are set forth in DoD Instruction 5000.64, “Defense
    Property Accountability,” August 13, 2002. The instruction integrates the broad
    requirements of the Federal Property and Administrative Services Act of 1949
    and the Chief Financial Officers Act of 1990 into an overarching property
    accountability policy. The instruction essentially consolidates already existing
    DoD policies, procedures, and practices as well as criteria on property
    accountability into one comprehensive framework. In doing so, the instruction
    effectively separates property accountability from accounting as a functional
    management area. Accountability is the obligation imposed by law or regulation
    and accepted by a person to keep accurate records of property, with or without
    physical possession. The person who actually has custody of property is
    responsible for its care and safeguarding. Personal property includes military
    equipment and most other types of property, except for real property, consumable
    items, component parts of a higher assembly, and items that lose their individual
    identity through use.

    Accountability Criteria and System Control. DoD requires that formal
    property accountability be maintained for personal property that either has an
    acquisition cost of $5,000 or more or is considered classified or sensitive.

           •   Classified Items. Require protection in the interest of national
               security.

           •   Sensitive Items. Require a high degree of protection and control due
               to statutory requirements or regulations, such as narcotics and drug
               abuse items, precious metals, highly technical or hazardous material,
               and small arms, ammunition, explosives, and demolition material.

    DoD policy is to permit DoD components to establish accountability controls for
    other property costing less than $5,000, if deemed appropriate for property
    management purposes or for property that is considered pilferable. At research,
    development, test, and evaluation (RDT&E) installations, personal property that
    requires formal accountability is often acquired commercially (does not have a
    national stock number), such as test equipment and computers. As of
    January 9, 2002, there were at least 67 military installations performing
    RDT&E work.

    In December 1994, the Under Secretary of Defense (Comptroller) designated the
    Defense Property Accountability System (DPAS) as the migratory system for the
    accountability and financial reporting of all DoD personal and real property. The
    system was intended to be an integrated accounting and logistics system that
    would provide general ledger control and depreciation schedule information to
    financial systems. However, in 2001, the Under Secretary concluded that
    migratory systems would most likely not be a part of the ultimate enterprise
    solution to Chief Financial Officers Act compliancy and curtailed further
    deployment of migratory systems to those organizations that already have a
    satisfactory system.


                                         1
    Prior Report. In June 1997, we reported that the Military Departments
    improperly stocked well over $1 billion of uncataloged material for RDT&E
    work. Inspector General of the Department of Defense Report No. 97-183,
    “Uncataloged Material at Research, Development, Test, and Evaluation
    Installations,” June 30, 1997, states that military installations did not fully
    consume uncataloged material in fabrication and testing and retained material
    without apparent need and without sufficient safeguards. The prior audit focused
    on the Military Departments’ implementation of DoD accounting and property
    accountability policies, procedures, and practices. Because we found that an
    item’s identity, acquisition date, cost, location, and other identifying information
    were often missing from accounting and accountability records, we categorized
    all personal property--regardless of cost or acquisition source--that we found
    improperly stocked as uncataloged material.

    Current Report. Because the new DoD instruction essentially separated
    property accountability from accounting as a functional management area, audit
    work for this report focused on only property accountability procedures and
    controls and concentrated on assets that met the DoD or Military Departments’
    accountability criteria for cost, classification, or sensitivity.


Objective
    The audit objective was to evaluate the Military Departments’ policies and
    procedures for maintaining property accountability at RDT&E installations. We
    also reviewed the management control program as it applied to the audit
    objective. See Appendix A for a discussion of the audit scope and methodology
    and our review of the management control program. See Appendix B for prior
    coverage related to the audit objective.




                                          2
            Property Accountability
            The Military Departments improved procedures and controls for
            maintaining property accountability at six RDT&E installations. We
            visited two RDT&E installations in each of the Military Departments and-
            -based on our review of new regulatory guidance, in-house assessments
            and inventories, a judgmental sample of items, and work area
            environments at those installations--concluded that personal property was
            properly maintained on accountability records with minor exceptions, was
            located in safeguarded, active work areas, and was being used or was
            marked for disposal.


Summary of Prior Report’s Recommended Actions
     Our prior audit report recommended that the Director, Defense Research and
     Engineering, in coordination with the Military Departments, improve property
     accountability by entering unrecorded assets on property accountability records
     and ensuring that the assets were needed and safeguarded. In response, the Under
     Secretary of Defense for Acquisition, Technology, and Logistics requested the
     Military Departments to determine the extent to which the problems with property
     accountability existed at RDT&E installations. Based on those determinations,
     the Military Departments were to provide the Director, Defense Research and
     Engineering with a plan of action and milestone chart to correct any material
     deficiencies identified.


Reviews at Military Installations
     Army Actions, Policies, and Facilities. The Army took responsive action to
     improve property accountability at RDT&E installations. On June 16, 1998, the
     Deputy Under Secretary of the Army (Operations Research) reported to the Under
     Secretary of Defense for Acquisition, Technology, and Logistics that the Army
     had conducted special investigations and was aggressively correcting all areas of
     uncataloged material needing improvement. The Deputy Under Secretary further
     stated that all RDT&E facilities had disposed of their excess project material and
     that all facilities would have cataloged and established accountability for all
     remaining material no later than September 30, 1998. The Deputy Under
     Secretary also noted that all Army facilities involved in RDT&E were directed to
     conduct special investigations to determine whether other similar situations as
     found in our report existed. The Deputy Under Secretary added that the existing,
     periodically recurring Command Supply Management Reviews had been
     modified to focus on RDT&E accountability.

     Policies and procedures for controlling Army personal property are contained in
     Army Regulation 735-5, “Policies and Procedures for Property Accountability,”




                                         3
June 10, 2002. The Army regulation and DoD Instruction 5000.64 were
consistent with the exception that the Army uses $300 as a basis for recording
property on accountability records and DoD uses $5,000.

In response to our prior audit, the Army Materiel Command--at the time in charge
of both Army installations reviewed during the prior audit (Fort Monmouth, New
Jersey and Aberdeen Proving Grounds, Maryland)--took prompt action to
determine whether its installations properly maintained accountability over
personal property. The Commander of the Army Materiel Command had a team
perform a special assessment of property accountability from September 1997
through March 1998. The team found problems similar to those identified by our
prior audit. The Commander directed that actions be taken to correct the
problems and to preclude them from happening again. In addition, this audit did
not include ammunition although the prior audit showed that many old
ammunition items lacked unit prices. However, a current provision in
Army Pamphlet 708-1, “Cataloging of Supplies and Equipment, Management
Control Numbers,” August 1, 2000, addresses the problem identified by the prior
audit. The pamphlet requires Test and Evaluation Command facilities to maintain
a central register for the assignment of all management control numbers. The
pamphlet also requires project and program managers to obtain numbers from the
Test and Evaluation Command before initiating contracting actions for RDT&E
equipment and prototype munitions to ensure that necessary catalog data is
obtained (including pricing) and that the numbers assigned stay with the items
throughout their life cycle.

         Management Controls and Audit Tests. For this audit, we reviewed
management controls and made tests of property accountability at two Army
facilities under the Army Materiel Command: the Army
Communications-Electronics Command at Fort Monmouth and the Army
Tank-automotive and Armaments Command, Research, Development and
Engineering Center at Picatinny Arsenal, New Jersey. Since the prior audit, the
Army Materiel Command Installations and Services Activity has reviewed
property accountability procedures at 12 RDT&E installations. The reviews,
including one performed at Picatinny Arsenal, found problems such as late
postings of property receipts that were minor compared to those identified by the
prior audit. The Communications-Electronics Command’s logistics office also
reviewed property accountability of project material and reported overall
improvement. In addition, the RDT&E facilities at Fort Monmouth and Picatinny
Arsenal performed inventories of project material annually and developed
checklists covering property accountability. Further, our reviews at the two
RDT&E facilities showed that management controls over personal property had
improved since our prior audit.

                 Communications-Electronics Command. The
Communications-Electronics Command was included in our prior review, which
found a large amount of uncataloged material locked in two barrack-sized
buildings or kept outside in an RDT&E area. In response to our report, property
book personnel stated that the Communications-Electronics Command either sent
the uncataloged material to depots or disposed of it. Property book personnel
stated that, as of April 2002, DPAS showed RDT&E facilities at Fort Monmouth
(including the Communications-Electronics Command) had 28,058 items on


                                    4
hand, with an acquisition cost of about $110.2 million, spread among
307 custodians. At the Communications-Electronics Command, purchases under
$2,500 are made using purchase cards while those for $2,500 and more are made
using local purchase procedures involving contracting officers. We reviewed a
sample of both types of purchases for the billing period December 2001 through
March 2002 to determine whether purchases were posted to accountable records
and were on hand. During that period, the Communications-Electronics
Command’s Acquisition Center reported that Fort Monmouth RDT&E facilities
made 4,340 purchases amounting to $1,443,160. We reviewed 40 purchases,
totaling $40,768, made by 8 of the 98 purchase card holders. We also selected
12 local purchases over $2,500 for review. In addition, we inventoried 50 items
(costing about $0.4 million) selected from accountability records, and we selected
20 additional items while we were taking our inventory to see whether they were
recorded on accountability records. With the exception of some minor
discrepancies, such as a purchase coding error, all sampled items reviewed were
properly recorded on accountability records and on hand; no items were identified
as missing. Further, we conducted a walkthrough of the Communications-
Electronics Command and observed that all personal property was located in
safeguarded, active work areas (laboratories and offices) and was being used or
was marked for disposal.

                Tank-automotive and Armaments Command, Research,
Development and Engineering Center. Property book personnel stated that, as
of September 2002, DPAS showed RDT&E components of the Tank-automotive
and Armaments Command, Research, Development and Engineering Center had
24,078 items on hand, with an acquisition cost of about $121.4 million, spread
among 233 custodians. At the Tank-automotive and Armaments Command,
Research, Development and Engineering Center, all acquisitions (regardless of
dollar value) are made through its local integrated financial system (e-nova),
operational since about July 2001. We reviewed purchases of four material
groups (automated data processing hardware, communications and electronics,
laboratory equipment, and laboratory supplies) made from October 1, 2001,
through March 31, 2002. During that period, there were 707 purchases
amounting to $2,227,733--all by purchase card holders on e-nova. We reviewed
49 purchases for $257,210 by 8 (of 75) purchase card holders. In addition, we
inventoried 50 items (costing about $0.3 million) selected from accountability
records, and we selected 20 additional items while we were taking our inventory
to see whether they were recorded on accountability records. With the exception
of some minor discrepancies, such as overlooked postings, all items reviewed
were properly recorded on accountability records and on hand; no items were
identified as missing. Further, we conducted a walkthrough of the
Tank-automotive and Armaments Command, Research, Development and
Engineering Center and observed that all personal property was located in
safeguarded, active work areas (laboratories and offices) and was being used.

Navy Actions, Policies, and Facilities. The Navy took responsive action to
improve property accountability at RDT&E installations. On May 22, 1998, the
Office of the Assistant Secretary of the Navy (Research, Development, and
Acquisition) reported to the Director, Defense Research and Engineering that a
plan of action with milestone dates was completed. Also, in a related initiative,
the Naval Audit Service reported on January 10, 2001, that management of


                                     5
sponsor-owned material at seven Naval Sea Systems Command Warfare Centers
had shown significant improvements since its prior audit and that about
$237.9 million of material had been excessed from the Centers’ inventories within
the last 3 and 3/4 years. In April 1997, the Naval Audit Service had reported that
the seven Centers, which perform RDT&E and fleet support for sponsors, held
about $1.5 billion in excess sponsor-owned material (assets that do not come
under DoD property accountability requirements) from completed production
jobs, base closures, and ship decommissioning.

In response to our prior report, the Navy published Secretary of the Navy
Instruction 7320.10, “Department of the Navy Personal Property Policies and
Procedures,” August 1, 2001. The instruction establishes policies and procedures
for the control of personal property at all Navy facilities. The Navy uses the DoD
criteria of $5,000 as a basis for recording property on accountability records. The
Navy instruction was consistent with DoD Instruction 5000.64.

        Management Controls and Audit Tests. We reviewed management
controls and made tests of property accountability at two Navy facilities: the
Naval Air Engineering Center at Lakehurst, New Jersey and the Naval Air
Warfare Center Aircraft Division at Patuxent River, Maryland. Both facilities are
part of the Naval Air Systems Command and use the Patuxent River Inventory
System to maintain property accountability over personal property. Our reviews
at the two RDT&E facilities showed that management controls over personal
property had improved since our prior audit.

                 Naval Air Engineering Center, Lakehurst. The Lakehurst
center was included in our prior review, which found a large number of
uncataloged avionic components and parts along with raw material locked in a
hangar or kept outside. In response to our prior report, the Lakehurst center
arranged a cleanup and moved an estimated $11 million of assets into more
appropriate storage areas or disposed of them. Property book personnel stated
that, as of September 4, 2002, the Patuxent River Inventory System showed all
facilities at Lakehurst, including the Naval Air Engineering Center, had 4,306
items on hand, with an acquisition cost of about $62 million, spread among 1,353
custodians. Lakehurst logistics personnel expected to complete a 3-year cyclic
inventory by December 2002. We inventoried 50 items (costing about
$3.8 million) selected from accountability records, and we selected 20 additional
items while we were taking our inventory to see whether the items were recorded
on accountability records. Only 2 items, costing $117,719, out of our initial
selection of 50 items could not be accounted for. No discrepancies were found
for the 20 additional items. In addition, we conducted a walkthrough of the Naval
Air Engineering Center and observed that all personal property was located in
safeguarded, active work areas (laboratories, offices, and test sites) and was
being used.

               Naval Air Warfare Center Aircraft Division, Patuxent River.
Property book personnel stated that, as of July 10, 2002, the Patuxent River
Inventory System showed all Navy Working Capital Fund facilities at Patuxent
River, including the Naval Air Warfare Center Aircraft Division, had
33,463 items on hand, with an acquisition cost of about $516 million, spread
among 5,256 custodians. Patuxent logistics personnel began a 3-year cyclic


                                     6
inventory on October 1, 2000, and, as of September 20, 2002, had identified only
10 items (valued at $341,418) as missing. We inventoried 50 items (costing about
$27 million) selected from accountability records and we selected 20 additional
items while we were taking our inventory to see whether the items were recorded
on accountability records. Only 1 item, an automated radar costing $330,000, out
of our initial selection of 50 items could not be located. According to command
personnel, a report of survey investigation had been initiated to ensure that the
item was excessed but not deleted from the accountable records. No
discrepancies were found for the 20 additional items. In addition, we conducted a
walkthrough of the Naval Air Warfare Center Aircraft Division and observed that
all personal property was either marked for disposal or located in safeguarded,
active work areas (laboratories and offices) and was being used.

Air Force Actions, Policies, and Facilities. The Air Force questioned the need
to improve property accountability at its RDT&E installations. On May 26, 1998,
the Principal Deputy to the Assistant Secretary of the Air Force (Acquisition)
reported to the Director, Defense Research and Engineering that all Air Force
RDT&E facilities already execute fully institutionalized logistics support
processes to acquire, control, and dispose of uncataloged material.

Air Force facilities conduct logistics support through centralized support
organizations called Logistics Materiel Control Activities that operate in
accordance with Air Force Materiel Command Instruction 23-201, “Logistics
Materiel Control Activity Operation Instruction,” December 27, 1999. The
instruction specifies appropriate management controls for RDT&E facilities,
which include processes for identifying, controlling, and disposing of excess
personal property. A Logistics Materiel Control Activity is an organization,
either Government or contractor operated, that implements supply policies and
procedures in support of Air Force Materiel Command RDT&E facilities. A
Logistics Materiel Control Activity performs all duties associated with property
accountability, to include processing property requests and turn-ins, record
keeping, and taking inventories. The Air Force Materiel Command instruction
and DoD Instruction 5000.64 were consistent with the exception that the Air
Force uses $2,500 as a basis for recording property on accountability records and
DoD uses $5,000.
        Management Controls and Audit Tests. We reviewed management
controls and made tests of property accountability at two Air Force installations
with three RDT&E facilities: the Information Directorate at Rome, New York
and the Directed Energy Directorate and the Space Vehicles Directorate at
Kirtland Air Force Base, New Mexico. At the three facilities, property
accountability is maintained through the Air Force’s Automated Materiel Control
System (for material other than automated data processing equipment) and the
Information Processing Management System (for automated data processing
equipment). Our reviews at the three RDT&E facilities showed that management
controls over personal property had improved since our prior audit.

               Information Directorate at Rome. The Information Directorate
at Rome was included in our prior audit, which found unlabeled communication
and electronic components and parts locked in small buildings without apparent
need and without proper accountability. The Information Directorate uses a


                                    7
Government-operated Logistics Materiel Control Activity to maintain property
accountability over personal property other than automated data processing
equipment. For automated data processing equipment, the Information
Directorate uses the Site Operations Division to maintain property accountability
and perform quality assurance reviews. As of May 2002, the Information
Directorate had 17,245 items on hand, with an acquisition cost of about
$120.3 million, spread among 106 custodian accounts. The Logistics Materiel
Control Activity and the Site Operations Division conducted a wall-to-wall
inventory during FY 2002 and performed a quality assurance review of property
accountability. The Activity’s inventory identified a relatively minor number of
missing items (10 items, costing about $13,000, within 7 custodian accounts).
The quality assurance reviews did not identify any problems with property
accountability. We inventoried 52 items (costing about $1.8 million) selected
from accountability records, and we selected 28 additional items while we were
taking our inventory to see whether the items were recorded on accountability
records. No discrepancies were found. In addition, we conducted walkthroughs
of four buildings and observed that all personal property was located in
safeguarded, active work areas (laboratories and offices) and was being used.

               Directed Energy and Space Vehicles Directorates at Kirtland.
The Kirtland directorates use a contractor-operated Logistics Materiel Control
Activity to maintain property accountability over personal property. Quality
assurance reviews by Kirtland logistics personnel did not identify property
accountability as a problem in FY 2002. As of March 2002, the directorates had
14,873 items on hand, with an acquisition cost of about $85.4 million, spread
among 190 custodian accounts. The Logistics Materiel Control Activity
conducted a wall-to-wall inventory during FY 2002. The Activity’s inventory
identified a relatively minor number of missing items (10 items, costing about
$34,000, within 5 custodian accounts). We inventoried 87 items (costing about
$5.3 million) selected from accountability records, and we selected 20 additional
items while we were taking our inventory and to see whether the items were
recorded on accountability records. No discrepancies were found. In addition,
we conducted walkthroughs of eight buildings and observed that all personal
property was located in safeguarded, active work areas (laboratories and offices)
and was being used.




                                    8
Appendix A. Scope and Methodology
   To evaluate the Military Departments’ policies and procedures for maintaining
   property accountability at RDT&E installations, we judgmentally selected
   six installations. We defined RDT&E installations as any military installation
   having at least one facility performing RDT&E work. DoD does not maintain a
   centralized list of RDT&E installations. The Office of the Director, Research and
   Engineering maintained a list of 67 installations performing RDT&E work, as of
   January 9, 2002. However, the list included installations with arsenals and
   centers that perform research and development work and not all installations with
   test and evaluation facilities. We judgmentally selected the installations (two
   from each Military Department) because a statistical basis did not exist. One of
   the two installations of each Military Department was selected because it had
   been included in our prior audit. The other installation of each Military
   Department was selected because it had a relatively large RDT&E workload. An
   accurate or meaningful list of DoD personal property on hand at RDT&E
   installations, individually or in total, does not exist because RDT&E installations
   employ different criteria to record personal property on accountability records and
   do not always separately identify property earmarked for RDT&E projects. Our
   focus was to determine whether personal property was properly maintained on
   accountability records and was safeguarded.

   The audit essentially involved a risk assessment of how well the Military
   Departments were maintaining accountability and protecting personal property at
   RDT&E installations. We did that by determining whether the material
   management environment for personal property had been improved or
   strengthened since our prior report. To do so, we reviewed Military Department
   procedures in effect at the time of this audit. The documented procedures,
   including DoD Instruction 5000.64, were dated from December 1999 through
   August 2002. We also conducted walkthroughs of RDT&E facilities to observe
   whether property was maintained in safeguarded, active work areas and was being
   used.

   We performed this audit from January through November 2002 in accordance
   with generally accepted government auditing standards. We did not employ
   statistical sampling techniques and, therefore, the results of our sample reviews
   cannot be projected. Our judgment in taking samples was influenced by variety,
   location, and dollar value. Detailed methodology, by Military Department,
   follows.

   Army. To determine whether the Army had improved accountability controls
   over personal property, we visited two Amy installations (Fort Monmouth and
   Picatinny Arsenal) with RDT&E facilities. At the facilities, we reviewed and
   tested management controls over property accountability at the time of our review
   (April through September 2002). We also reviewed external and in-house
   reviews made on each facility’s property accountability controls. To test property
   accountability controls, we checked whether recent acquisitions (89 by purchase
   card holders and 12 by contracting officers) were on hand and recorded on
   accountability records (DPAS). We also inventoried a judgmentally selected



                                        9
    sample of 50 items and selected an additional 20 items while we were taking our
    inventory to see whether the items were properly recorded on accountability
    records.

    Navy. To determine whether the Navy had improved accountability controls over
    personal property, we visited two Navy installations (Lakehurst and Patuxent
    River) with RDT&E facilities. At the facilities, we reviewed and tested
    management controls over property accountability that were in effect at the time
    of our review (March through October 2002). We also reviewed external and
    in-house reviews made on each facility’s property accountability controls. To test
    property accountability controls, we inventoried a judgmentally selected sample
    of 50 items and selected an additional 20 items while we were taking our
    inventory to see whether the items were properly recorded on accountability
    records (the Patuxent River Inventory System).

    Air Force. To determine whether the Air Force had improved accountability
    controls over personal property, we visited two Air Force installations (Rome and
    Kirtland) with three RDT&E facilities. At the facilities, we reviewed and tested
    management controls over property accountability that were in effect at the time
    of our review (March through May 2002). We also reviewed external and
    in-house reviews made on each facility’s property accountability controls. To test
    property accountability controls, we inventoried a judgmentally selected sample
    of 52 items for the facility at Rome and 87 items for the facilities at Kirtland. We
    also selected an additional 28 items at Rome and 20 at Kirtland to see whether the
    items were properly recorded on accountability records (the Automated Materiel
    Control System for materiel other than automated data processing equipment and
    the Information Processing Management System for automated data processing
    equipment).

    Use of Computer-Processed Data. Property book personnel provided summary
    totals of personal property that were derived from automated accountability
    records. We verified information sampled from automated acquisition files and
    automated accountability records. We did not find errors that would preclude our
    use of the computer-processed data to meet the audit objective or that would
    change the conclusions in this report.
    High-Risk Area. The General Accounting Office has identified several high-risk
    areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                        10
Scope of the Review of the Management Control Program. We reviewed the
propriety of the Military Departments’ personal property at RDT&E installations.
Specifically, we determined whether the Military Departments had improved
procedures and controls for maintaining property accountability over personal
property. Because we did not identify a material weakness, we did not assess
management’s self-evaluation.

Adequacy of Management Controls. Management controls were adequate as
they related to the audit objective.




                                   11
Appendix B. Prior Coverage
       During the last 6 years, the Inspector General of the Department of Defense
       (IG DoD), the Naval Audit Service, and the Air Force Audit Agency have issued
       10 reports dealing with property accountability issues. The IG DoD issued six
       reports, the Naval Audit Service issued three reports, and the Air Force Audit
       Agency issued one report. Unrestricted IG DoD reports can be accessed over the
       Internet at http://www.dodig.osd.mil/audit/reports.

IG DoD
       IG DoD Report No. D-2001-169, “United Sates Special Operations Command’s
       Reporting of Real and Personal Property Assets on the FY 2000 DoD Agency-
       Wide Financial Statements,” August 2, 2001

       IG DoD Report No. D-2000-133, “Defense Logistics Agency FY 1999 Property,
       Plant, and Equipment Financial Reporting,” May 30, 2000

       IG DoD Report No. D-2000-078, “Reliability of the Defense Commissary Agency
       Personal Property Database,” February 18, 2000

       IG DoD Report No. 99-142, “ Defense Logistics Agency FY 1998 Property,
       Plant, and Equipment Financial Reporting,” April 26, 1999

       IG DoD Report No. 98-135, “Implementation of the Defense Property
       Accountability System,” May 18, 1998

       IG DoD Report No. 97-183, “Uncataloged Material at Research, Development,
       Test, and Evaluation Installations,” June 30, 1997

Navy
       Naval Audit Service Report No. N2001-0034, “Department of the Navy Working
       Capital Fund Fiscal Year 2000 Personal Property,” June 28, 2001

       Naval Audit Service Report No. N2001-0008, “Audit Followup on Management,
       Control, and Accounting Procedures for Sponsor Material at Naval Sea Systems
       Command Warfare Centers,” January 10, 2001

       Naval Audit Service Report No. 037-98, “Management of Sponsor Material at
       Naval Air Systems Command Warfare Centers,” June 2, 1998

Air Force
       Air Force Audit Agency Report No. 99061026, “Followup Audit--Noncataloged
       Depot Item Management,” November 2, 1999



                                         12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Director, Defense Research and Engineering
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Commanding General, U.S. Army Materiel Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform



                                          13
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Robert E. Schonewolf
Alexander L. McKay
Kayode O. Bamgbade
Eugene V. Barr
Janice Conte
Mandy L. Rush
Elizabeth L.N. Shifflett
